No.

5265

IN THE

SUPREME COURT OF THE UNITED STATES

Hazhar A. Saved

— PETITIONER _

(Your Name)

PILED
JUl 0 1 2020

vs.

THE STATE OF COLORADO

— RESPONDENT(S) ON

PETITION FOR A WRIT OF CERTIORARI TO

Colorado Supreme Court
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Hazhar A. Sayed, #133608
Limon Correctional Facility
49030 State Hwy. 71
Limon, CO. 80826
(Pro-Se)

RECEIVED
JUL 14 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

ISSUES PRESENTED FOR REVIEW

1

Whether ffie Inal court violated Sayed’s c€mt£^6naT'i^iWi»in^,^eiit

investigator about Sayed’s post-arrest silence because Sayed’s post-arrest silence
had no evidentiary value other than to imply guilt based on Sayed exercising his
constitutional right to remain silent?

n.

Whether the trial court violated Sayed’s due process right to have the

government prove his guilt beyond a reasonable doubt and reversibly erred when it
failed to—sua sponte—instruct the jury on self-defense because the evidence at
trial unequivocally provided more than a scintilla of evidence establishing that
Sayed acted in self-defense?

m.

Whether the trial court violated Sayed’s due process rights, abused its

discretion, and reversibly erred when it failed to order a competency evaluation for
Sayed because substantial evidence was presented that demonstrated that (1)
Sayed may not have understood the nature and course of the proceedings and (2)
Sayed could not cooperate with defense counsel?
JURISDICTION AND OPINION BELOW
The court of appeals announced its unpublished opinion on February 13,
2020. See People v. Sayed, No. 17CA847 (2020). A copy of the opinion is

2

-f»
,

%■

••.

-•* . -■

A

-4

■w ■

LIST OF PARTIES

D3 All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

»# 9

.ft I

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION

■2- 3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

H

STATEMENT OF THE CASE

3-5

REASONS FOR GRANTING THE WRIT

Cp —3 (p

CONCLUSION

INDEX TO APPENDICES
APPENDIX A...3>ec,*jsfofl

of Co/on^

&>u/^h of 'tfppe-^/s.

0f ColoO+A SotpterrHL
APPENDIX B. » & r5)'ec-t$i oYl
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF CONTENTS

TABLE OF CONTENTS AND AUTHORITIES

l-v

ISSUES PRESENTED FOR REVIEW.

2

JURISDICTION AND OPINION BELOW

2-3

NATURE OF THE CASE, PROCEDURAL HISTORY, AND
RULING/JUDGEMENT/ORDER PRESENTED FOR REVIEW

3-5

REASONS FOR GRANTING THE WRIT
I.

6-36

The trial court violated Sayed’s constitutional right to remain silent and

reversibly erred when it allowed the government to question a DOC investigator
about Sayed’s post-arrest silence because Sayed’s post-arrest silence had no
evidentiary value other than to imply guilt based on Sayed exercising his
constitutional right to remain silent
II.

6-17

The trial court violated Sayed’s due process right to have the government

prove his guilt beyond a reasonable doubt and reversibly erred when it failed to—sua
sponte—instruct the jury on self-defense because the evidence at trial unequivocally
provided more than a scintilla of evidence establishing that Sayed acted in selfdefense
III.

17-23
The trial court violated Sayed’s due process rights, abused its discretion, and

reversibly erred when it failed to order a competency evaluation for Sayed because
substantial evidence was presented that demonstrated that (1) Sayed may not have
l

understood the nature and course of the proceedings and (2) Sayed could not
^OOperate^with-defense-COUnsel^.nvvk^bkorst.:n;-r..«r^..«m rr 23-36

----- 36

CONCLUSION__

37

CERTIFICATE OF SERVICE

li

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
|^(] For cases from state courts:
The opinion of the highest state court to review the merits~appears at
Appendix
— to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
DO is unpublished.
The opinion of the CtAbSSo^ PhlAcV c£~
J <;
court
appears at Appendix _£t__ to the petition and is
DO reported at
(jAb» App.
; or,
[ ] has been designated for publication but is not yet reported; or,
^ is unpublished.
1.

to

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was____________________ _
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

1^1 For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution. Amendment Five
“No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or in
the Militia, when in actual service in time of War or public danger; nor shall any person be subject for
the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use, without just compensation.”

United States Constitution. Amendment Fourteen
“1. All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce any
law which shall abridge the privileges or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.”

Colorado Revised Statutes
§ 18-3-203 C.R.S.
§ 18-3-204 C.R.S.

TABLE OF AUTHORITIES
Page(s)
Cases
Blecha v. People, 962 P.2d 931, 942 (Colo. 1998)

35, 36

Bloom v. People, 185 P.3d 797, 808 (Colo. 2008)

24,35

Castillo v. People, 421 P.3d 1141,1148 (Colo. 2018)
Collegenia v. State, 132 P. 375 (OK. 1913)
Combs v. People, 205 F.3d 269, 279-80 (6th Cir. 2000)
Doyle v. Ohio, 426 U.S. 610, 617-19 (1976)
Dusky v. U.S., 362 U.S. 402,403 (1960)

20
21,22
11
11, 12
24,25,27,29, 34, 35

Fletcher v. Weir, 455 U.S. 603, 606-07 (1982)

12

In re Winship, 397 U.S. 358, 364 (1970)

20

King v. Commonwealth, 220 S.W. 755 (KY. 1920)

21,22
11

Lefkowitz v. Turley, 414 U.S. 70 (1973)
Miranda v. Arizona, 384 U.S. 436 (1966)

10, 11, 12

Owens v. State, 225 P.2d 812 (OK. 1950)

21,22

People v. Cole, 584 P.2d 71, 72-73 (Colo. 1978)

13, 16

People v. Davis, 312 P.3d 193, 199 (Colo. App. 2010)
People v. Garcia, 28 P.3d 340, 343 (Colo. 2001)
People v. Jacobson, 2017 WL 2981807 (Colo. App. 2017)
People v. Kilgore, 992 P.2d 661, 663 (Colo. App. 1999)
in

6, 8, 10, 14, 17
20, 22
21
,24, 25,27, 34

-

People v. Lankford, 524 P.2d 13.82,1385 (Colo. 1974)

21

Teopteft £M,232T:3dl35ri62tCmd: Aff.2009)

.IB

People v.Matthews, 1562-P:2dl 108, 111 1 (Gok).Appri983)......—

24,25,3-5.......

People v. Miller, 113 P.3d 743, 751 (Colo. 2005)

.....18,23

People v. Newell, 395 P.3d 1203, 1207 (Colo. App. 2017)
People v. Pickering, 276 P.3d 553 (Colo. App. 2011)
People v. Quintana, 665 P.2d 605, 609-11 (Colo. 1983)

20, 22
20,22,23
13, 16
2

People v. Sayed, No. 17CA847 (2020)
People v. Stephenson, 165 P.3d 860, 866 (Colo. App. 2007)
People v. Valdez, 969 P.2d 208,211 (Colo. 1998)
People v. Welsh, 58 P.3d 1065, 1072 (Colo. App. 2002)
People v. Wingfield, 411 P.3d 869, 874 (Colo. App. 2014)

24,28, 35
6
11
24,25, 27,29, 34, 35

State v. Bidstrup, 140 S.W. 904 (MO. 1911)

21,22

State v. Brice, 2 S.E.2d 391 (SC. 1939)

21,22

State v. Browers, 205 S.W.2d 721 (MO. 1947)

21,22

State v. Bryant, 197 S.E. 530 (NC. 1938)

21,22

State v. Ford, 130 S.W.2d 635 (MO. 1939)

21,22

State v. Goodson, 69 S.E.2d 242 (N.C. 1952)

21,22

State v. Greer, 12 S.E. 2d 238 (NC. 1940)

21,22

US. v. Hale, 422 U.S. 171 (1975)

12,13, 16
IV

Statutes
....25 ~ :
C.R.S, •§ 4^-S5-i02

.28,-34

C.R.S. § 16-8.5-102(2)(a)

25

C.R.S. § 16-8.5-103

25,28

C.R.S. § 16-8.5-118

25

C.R.S. § 18-3-202(l)(a)

3

C.R.S. § 18-3-202(1)(e)

3

C.R.S. § 18-3-202( 1 )(f)

3-4

C.R.S. § 18-3-202(2)(b)

3,4

C.R.S. § 18-3-203(l)(b)

4

C.R.S. § 18-3-203(l)(f)

4

C.R.S. § 18-3-203(2)(b)

4

Other Sources
C.A.R. 52

3

United States Constitution and the Article II, § 18

v

11

-

_attached as Appendix A. Neither party has.filed apetition for rehearing.. Thus, .
pursuant to'CA^tR. 52, the timFfor filing this petition expires on

f26/2020.

ANBTnJdlNG/J UiyGMFNT/ORBERPRESENTEDFORREVrEW
On June 2, 2015, the government, in Logan County, Colorado, in case
number 15CR120, charged Sayed with the following: (count one) first degree
assault in violation of C.R.S. § 18-3-202(1)(e) and; (count two) first degree
assault in violation of C.R.S. § 18-3-202(1)(a)‘ (CF, ppl, 6-7).
On July 21, 2015, Garen Gervey—from the public defender’s office—
entered his appearance as counsel for Sayed (CF, p25). On October 15,2015, Mr.
Gervey filed a “Motion to Withdraw Because of a Total Breakdown in
Communication Between Counsel and Sayed” (CF, pp56-57). On October 15,
2015, the trial court granted Mr. Gervey’s request to withdraw and appointed Thor
Bauer—from Alternate Defense Counsel (“ADC”)—to represent Sayed (CF, p58).
On April 6,2016, the government filed a “Motion to Amend Complaint and
Information” and an “Amended Complaint and Information” (CF, ppl 19-24).
Specifically, the government requested to amend the complaint and information as
follows: (1) for count one, the government sought to amend the complaint and
information so that Sayed was charged with first degree assault pursuant to C.R.S.

Both class three felonies pursuant to C.R.S. § 18-3-202(2)(b).
3

§ 18?3r202(l)(f)2 {2) for count two, the government sought to amend the . :

.

conipiaiffiTM3'^dffnMon§olKafSaye3wascKafge3^witlfsecdn3 aegreeassault
—,

~pursiiantfo-€TR7Sr§4-8^3^3(-l-Xjf)3-and-(3^-tlie'govemm€ntsoughHo'addxoiint'------three to the complaint and information, which charged Sayed with second degree
assault pursuant to C.R.S. § 18-3-203(1)(b)4 (CF, ppl 19-24). The court granted
the government’s request to amend the complaint and information on that same
date (CF, pi 17).
On June 1,2016, Sayed filed a pro se “Motion to Dismiss Assigned Counsel
and Request for Appointed New Counsel, Ineffective Assistance” (CF, ppl 78-80).
On June 23,2016, Mr. Bauer filed a “Motion to Withdraw” wherein he requested
to withdraw as counsel for Sayed (CF, ppl75-76). On June 24,2016, the trial
court issued an “Order to Withdraw” wherein the court allowed Mr. Bauer to
withdraw and stated that it would appoint substitute ADC counsel (CF, pi81). On
August 1,2016, the court appointed ADC counsel Stephanie Stout to represent
Sayed (CF, p208). On August 4, 2016, Ms. Stout entered her appearance as
counsel for Sayed (CF, p209).
Sayed tried his case to a jury over the course of three days, January 23-25,
2017. At trial, the government alleged that Sayed assaulted Captain Michael

2 A class three felony pursuant to C.R.S. § 18-3-202(2)(b).
3 A class four felony pursuant to C.R.S. § 18-3-203(2)(b).
4 A class four felony pursuant to C.R.S. § 18-3-203(2)(b).
4

Tidwell while incarcerated in the Sterling Correctional Facility (e.g. TR. 1/24/17,
pp2l7,227-32). After the presentation of the evidence, the defense requested that,

degree assault (TR. 1/24/17, pp392-93). The court instructed the jury on the
lesser-included offense of third degree assault for count three pursuant to defense
counsel’s request (CF, 417).
After deliberation, the jury found Sayed not guilty of count one, guilty of
count two, and guilty of the lesser-included offense for count three, third degree
assault (CF, pp415-17).
On May 5,2017, the court sentenced Sayed to: (1) three years of
incarceration in the Department of Corrections (“DOC”) for his conviction on
count two and (2) six months incarceration for his misdemeanor conviction on
count three (TR. 5/5/17, pp615-16). Further, the court ordered that Sayed’s
sentence would (1) run consecutive to his sentence in Broomfield case 05CR70
for count two and (2) run concurrently with his sentence in Broomfield case
05CR70 for count three (CF, pp615-16).
Sayed appealed his convictions to the court of appeals in case number 17CA847.
On February 13,2020, the court of appeals issued its opinion affirming Sayed’s
convictions.
Sayed now submits this petition for writ of certiorari.

5

REASONS FOR GRANTING THE WRIT
•——Ir ThetriaieourtviolatedSayed’sconstitutionairigtittoTeTnainsiJentand
reversibly erred when it allowed the government to question a DOC
investigator-about ^ayed’s-post-araest-silenceTiecause Sayed’s-post-arrest----exercising his constitutional right to remain silent.
A.

Standard of Review
This issue was preserved when defense counsel objected to the prosecutor

asking a DOC investigator about Sayed’s post-arrest invocation of his right to
remain silent (TR. 1/24/17, p382). This issue was further preserved when defense
counsel supplemented her argument with reference to legal authority on the third
day of trial, January 25, 2017 (TR. 1/25/17, pp528-29).
Because the facts applicable to this issue are undisputed, the legal effect of
those facts constitutes a question of law which is subject to de novo review.
People v. Valdez, 969 P.2d 208,211 (Colo. 1998). Moreover, when preserved, the
erroneous admission of evidence concerning a defendant’s silence is reviewed for
constitutional harmless error. People v. Davis, 312 P.3d 193,199 (Colo. App.
2010).
B.

Applicable Facts
On October 27,2016, the court held a motions hearing (TR. 10/27/16, p506).

At that hearing, the court, among others, addressed Sayed’s motion to suppress
statements and engaged in the following colloquy:

6

[COURT]: As far as the motions.. .there was a Motion to Suppress. I
don’t know that there were any statements that are out there.
[DEFENSE COUNSEL]: I’m not aware of any statements that are
going-to-be used.— •—
•
..........
~ *
[PROSECUTOR]: The only statements by the Defendant were prior
to the assault, something to the effect of, Let’s fight. No statements
were made after the fight. He refused to talk to investigators.
[COURT]: which, obviously, the silence will not be mentioned.
Clearly, everybody knows that one.
(TR. 10/27/16, p508).
On the second day of trial, January 24, 2017, Sayed testified in his own
defense (TR. 1/24/17, pp323-74). After Sayed testified, the government called one
rebuttal witness, Lariy Frese, an investigator with DOC (TR. 1/24/17, p375).
During the government’s direct-examination of Mr. Frese, the following colloquy
occurred:
[PROSECUTOR]: Okay. You heard all of the defendant’s testimony
today?
[MR. FRESE]: Yes.
[PROSECUTOR]: Did he tell you everything today that he told you
back on May 2nd when you saw him.
[MR. FRESE]: No.
[DEFENSE COUNSEL]: May we approach?
[COURT]: You may.

7

[DEFENSE COUNSEL]: Judge, on May 2nd he immediately invoked
arid said Ke Was norgdirig to make any s®emenlIfiJdut this/This is
an improper inquiry and infringes on his right to remain silent.
A'skingif-he^aid'everythingthen^as-hedid-now,thisis-an-improper~inquiry.
.... [PROSECUTOR]: I have case law for the Court if the Court wants to
see it. If a defendant tells versions of the story and previously did not
tell law enforcement, this is the first time the statement has been
made... .People v. Davis.
[COURT]: The objection is overruled. I’m going to allow the
questions based on the authority cited to me.
[DEFENSE COUNSEL]: Can I look through that.. .Because he
invoked his right to remain silent and for me to be able to crossexamine I now have to cross-examine and say he invoked his right to
remain silent, which could be more prejudicial than helpful. It puts
me in an untenable position.

[COURT]: The objection is overruled.

[PROSECUTOR]: Allow me to state the question again, Investigator.
You heard everything the defendant testified to in court today?
[MR.FRESE]: Yes.
[PROSECUTOR]: Did he tell you the same account back on May 2,
2Q15, when you met with him?
[MR. FRESE]: No.
(TR. 1/24/17, pp. 381-83).

8

. Then, during defense counsel ’ s cross-examination of Mr. Frese, the
ToHowlng colloquy occurred:
TDEFENSECOUNSEL]:
have nothing to say to you, turned around, and walked away; right?
[MR. FRESE]: Correct.
[DEFENSE COUNSEL]: He didn’t make any statement at all, did
he?
[MR. FRESE]: Correct.
[DEFENSE COUNSEL]: Yeah. So it’s not that he made a different
statement
[PROSECUTOR]: Your Honor, it’s been asked and answered twice
now.
[COURT]: Overruled. You can ask.
[DEFENSE COUNSEL]: It’s not that he made a different statement,
it’s that he didn’t make any statement as is his right, right?
[MR. FRESE]: Correct.
(TR. 1/24/17, p384).
A short while later, out of the presence of the jury, defense counsel
requested the opportunity to make an additional record on the prosecution’s
questions regarding Sayed’s silence and stated, “I just want to make sure that it’s
considered contemporaneous.” (TR. 1/24/17, p388-89). In response, the court
stated “The Court has no objection to that. That would be entirely appropriate.”
(TR. 1/24/17, p389).
9

On the third day of trial, January25,2017, defense counsel supplemented
Her objection tolhe gdveEMenFs testimony on Sayed’i cdnsEtulSdfiffl n^Bt to
„ ....-----remain^ilent*bydistinguishing^he'fectsTn-PBqpfe*pn0im5’r3i2~P^d’l"93-f0oloT”—
App. 2010)—which the court relied upon to overrule defense counsel’s
objection—from the facts in Sayed’s case (TR. 1/25/17, pp528-29).
In response, the court stated “All right. Thank you. I always welcome
guidance from the court of appeals.” (TR. 1/25/17, p529). The prosecutor then
stated “just to note that the defendant was never arrested in this case on these
charges. He was served a summons. He was never in custody. So Miranda was
never implicated.” (TR. 1/25/17, p530). In response, defense counsel'stated “I
wasn’t arguing Miranda... .This case says it’s Fifth Amendment and so I’m malting
a Fifth Amendment argument.” (TR. 1/25/17, p530). Defense counsel then
requested leave to file a copy of Sayed’s statement as a special exhibit. The court,
however, never mled on counsel’s request to file a special exhibit that contained
Sayed’s statement and the special exhibit does not appear in the appellate record.
There is no indication in the record whether Mr. Frese or any other officers
did or did not read Sayed—an inmate at the Sterling Correctional Facility—his
Miranda rights before he invoked his right to remain silent.
C.

Law and Analysis

10

Bath the Fifth Amendment to theUnited States Constitution and the Article
II, ■§ 18 ofthet:oloraao Cdnstitution provide that no person shall becompelled to
festify-against-himself-or’herself-in-any'criminal-proeeedingST'The-Fifth
Amendment not only protects the individual from being involuntarily called as a
witness against himself or herself, “but also grants a privilege not to answer
official questions put to him or her in any other proceedings, civil or criminal,
formal or informal, where the answers might incriminate him or her in future
criminal proceedings.” Welsh, 58 P.3d at 1069 (citing Lejkowitz v. Turley, 414
U.S. 70 (1973)).
1.

Post-Miranda Invocation of Silence
In Doyle v. Ohio, 426 U.S. 610, 617-19 (1976), the United States Supreme

Court made it clear that a defendant’s invocation of silence pursuant to Miranda v.
Arizona, 384 U.S. 436 (1966) and the Fifth Amendment to the U.S. constitution
cannot be used to impeach a defendant’s testimony. Specifically, the Supreme
Court held that when a defendant is mirandized, it would be fundamentally unfair
for the government to use the defendant’s invocation of his right to remain silent
against him at trial. Id.-, Combs v. People, 205 F.3d 269,279-80 (6th Cir. 2000).
Thus, the Court in Doyle held that the government’s use of the defendant’s postMiranda silence violated the Due Process Clause of the Fourteenth Amendment.
Doyle, 426 U.S. at 617-19.

11

Here,ihe record is not clear whether Frese read Sayed his Miranda rights
priortoTSayetl mvoldiiglus cdiStitiMonal'n^it to remain silrat lfFresllflid read"
-S^yed4iisM/ra«t/aTightS'priorio-S^yed-mvok-ing-nis~eonstitutional-right-to-remain—
silent, the government’s questions at trial regarding Sayed’s invocation of his right
to remain silent constituted a violation of Sayed’s constitutional rights.
Specifically, when the government asked Frese whether Sayed’s in-court testimony
was identical to his remarks on May 2, 2015—when Sayed invoked his
constitutional right to remain silent—the government impermissibly commented
on Sayed’s constitutional right to remain silent if Frese had, in fact, mirandized
Sayed prior to the invocation of the constitutional right to remain silent. Doyle,
426 U.S. at 617-19.
2.

Post-Arrest Silence without Miranda Warnings
In Fletcher v. Weir, 455 U.S. 603, 606-07 (1982), the United States Supreme

Court held that not all uses of a defendant’s post-arrest silence violates due process
of law. Specifically, the Supreme Court in Weir held that, where a defendant was
not mirandized, “we do not believe that it violates due process of law for a State to
permit cross-examination as to postarrest silence when a defendant chooses to take
the stand.” Id. at 607.
In Colorado, the supreme court—citing U.S. v. Hale, 422 U.S. 171 (1975)—
has stated that before post-arrest silence can be used as a form of impeachment, the

12

’

trial court must verify, as a threshold matter* that the post-arrest silence is indeed
InconsistentWiththelalerMciflpi&^te^^^yorSiedefendant at Hal. Teopte
vrCole; 5'84"f>:2d ?i, 72=73_(Coio. t978). “Ifthe'Govemment faiisto'estatofelra
threshold inconsistency between silence and later exculpatory testimony at trial,
proof of silence lacks any significant probative value and must therefore be
excluded.” Id. (quoting Hale, 422 U.S. at 176).
The court in Cole further noted that post-arrest silence is inherently
untrustworthy because an arrestee is under no duty to speak and:
[a]t the time of the arrest and during custodial interrogation, innocent
and guilty alike perhaps particularly the innocent may find the
situation so intimidating that they may choose to stand mute. A
variety of reasons may influence that decision. In these often
emotional and confusing circumstances, a suspect may not have heard
or fully understood the question, or may have felt there was no need to
reply... .He may have maintained silence out of fear or unwillingness
to incriminate another. Or the arrestee may simply react with silence
in response to the hostile and perhaps unfamiliar atmosphere
surrounding his detention.
Id. (quoting Hale, 422 U.S. at 177).
Further, in People v. Quintana, 665 P.2d 605,609-11 (Colo. 1983), the
Colorado Supreme Court held that that government improperly used the
defendant’s post-arrest silence because such evidence was irrelevant. Indeed, the
supreme court noted that “silence generally is thought to lack probative value of
the question of whether a person has expressed agreement or disagreement with
contemporaneous statements of others.” Quintana, 665 P.2d at 609-11.
13

An example of how a defendant’s post-airest silence can become relevant
cM3eTouh3 inTeopIifv71javis\3V2V33T93,T99-201. TTSre, ffie"3SFen3arit
LAt<

x?~

response, the prosecution impeached the defendant with his omissions when
discussing the case with the detective, thereby utilizing the defendant’s post-arrest
silence against him. Id. Under these circumstances, it was proper for the
prosecution to use the defendant’s post-arrest silence because the defendant’s
silence was indeed contrary to his trial testimony, thereby giving his silence
probative value. Id.
Here, Frese—a DOC investigator—attempted to question Sayed about the
allegations in this case on May 2,2015 while Sayed was incarcerated in the
Sterling Correctional Facility. This interaction, thus, constituted a custodial
interrogation. In response to Frese’s attempts to question him, Sayed invoked his
constitutional right to remain silent.
During the government’s direct-examination of Frese at trial, the following
colloquy occurred:
[PROSECUTOR]: Okay. You heard all of the defendant’s testimony
today?
[FRESE]: Yes.
[PROSECUTOR]: Did he tell you everything today that he told you
back on May 2nd when you saw him.

14

{FRESE]:^ No. . -

-

(TR. 1/24/17, p381)- Because Sayed was questioned by a DOG investigator while
"he was in custody,"life government's testimony oiTSayedTSlehceis properly
considered remarks by the government on Sayed’s post-arrest silence.
In response to the government’s testimony on Sayed’s post-arrest silence,
defense counsel objected stating that such questioning violated Sayed’s
constitutional right to remain silent. The court, however, allowed the government
to question Frese on Sayed’s post-arrest silence. Indeed, after defense counsel’s
objection, the following colloquy occurred:
[PROSECUTOR]: Allow me to state the question again,
Investigator. You heard everything the defendant testified to in court
today?
[FRESE]: Yes.
[PROSECUTOR]: Did he tell you the same account back on May 2,
2015, when you met with him?
[FRESE]: No.
(TR. 1/24/17, pp. 381-83).
Thus, the court allowed the government, on two occasions, to question Frese
on Sayed’s post-arrest silence. The court failed, however, to determine whether a
valid evidentiary purpose existed to justify the government’s use of Sayed’s post­
arrest silence. Indeed, the court, before infringing on Sayed’s constitutional right

15

to remain silent, had an obligation to ascertain whether Sayed’s^ost-arrest silence
Indeed ihcdnSsteht wlSh his e^hl^toty inar tisdmohy, People VCole^ 584

inconsistency between silence and later exculpatory testimony at trial, proof of
silence lacks any significant probative value and must therefore be excluded.” Id.
(quoting Hale, 422 U.S. at 176).
Had the court engaged in such an analysis, it would not have permitted the
government to utilize Sayed’s post-arrest silence at trial. Specifically, unlike in
Davis, supra—where the prosecution properly used the defendant’s post-arrest
silence because the defendant’s silence was indeed contrary to his trial testimony—
Sayed’s silence was not relevant to his testimony or the case. Indeed, the
government used Sayed’s post-arrest silence only to create an implication that
Sayed was guilty because he refused to speak with the DOC investigator on May 2,
2015—Frese—i.e. the government used Sayed’s post-arrest silence to punish the
exercise of his constitutional right to remain silent. This was wholly improper
because (1) silence, in and of itself, has little to no probative value and (2) there
are countless reasons why a defendant may choose not to speak with the
government. Cole, 584 P.2d at 72-73; Quintana, 665 P.2d at 609-11.
In light of the above, the court violated Sayed’s constitutional right to
remain silent and reversibly erred when it permitted the government to ask Frese

16

about Sayed’s post-arrest silence withoutavalideyidentiarypurpose that.
warranted such an infringeifient on his constitutional right to remain silent.
3.

Conclusion
Pursuant to Argument I.C.2. above, Sayed requests that this Court reverse

his convictions because the trial court allowed the government to improperly
infringe upon his constitutional right to remain silent. Indeed, the evidence against
Sayed was not overwhelming—or even particularly strong—as the jury acquitted
him on count one and found him guilty of a lesser-included offense for count three
(CF, pp415-17). Moreover, a real possibility exists that the jury convicted Sayed
because he invoked his constitutional right to remain silent. Simply put, no other
valid evidentiary reason existed that justified admission of evidence regarding
Sayed’s post-arrest silence and the jury possibly used such evidence to infer guilt.
Thus, it cannot be said that the jury’s guilty verdict was surely unattributable to the
error and reversal, therefore, is required. Davis, 312 P.3d at 199.
Alternatively, pursuant to Argument I.C.l. above, Sayed requests that this
Court remand the case to the trial court for additional evidentiary proceedings to
determine whether Frese mirandized Sayed before Sayed invoked his constitutional
right to remain silent.
The trial court violated Sayed’s due process right to have the
II.
government prove his guilt beyond a reasonable doubt and reversibly erred
when it failed to—sua sponte—instruct the jury on self-defense because the
evidence at trial unequivocally provided more than a scintilla of evidence
17

establishing that Sayed acted in self-defense.
A.

Standard of Review

novo to determine whether the instructions as a whole accurately informed the jury
of the governing law. People v. Lucas, 232 P.3d 155,162 (Colo. App. 2009).
Appellate courts farther review unpreserved instructional errors for plain error.
People v. Miller, 113 P.3d 743, 751 (Colo. 2005).
B.

Applicable Facts
At trial, Sayed testified to the following:
on May 2,2015, an Officer contacted him through the intercom in his cell to

discuss a grievance he had filed (TR. 1/24/17, p327);
then, he was escorted by Captain Tidwell and Lieutenant Page to the case
manager’s office (TR. 1/24/17, p332);
en route to the case manager’s office, Captain Tidwell punched him on his
right eye (TR. 1/24/17, p333);
then Captain Tidwell threw down his notepad and punched him several
times (TR. 1/24/17, p334);
he tried to talk to Captain Tidwell, but then Captain Tidwell “tried to punch
[him] again. And [he] raised [his] hand trying to block the punches because he
was hurting [him] really bad” (TR. 1/24/17, pp334-35);

18

Captain Tidwell punched him, and he raised his hand to try to block the

. .. •.

punches (TfL 1/24/17, p335);
'

CaptainTidweH-was-punching'him-and'pushing4iimT)ack'(TR7-i’/24/1^77

-

p335);
Captain Tidwell kicked him four or five times, and then Captain Tidwell
slipped and fell (TR. 1/24/17, p337);
after Captain Tidwell slipped, other officers began to grab him, and he
pushed them back to get them off of him (TR. 1/24/17, p338);
when Captain Tidwell was punching him, he put up both of his hands to
block the punches (TR. 1/24/17, p348);
after he was restrained, Captain Tidwell broke his finger and said, “we are
even now” (TR. 1/24/17, p349);
when Captain Tidwell was punching him, he raised his hands to block the
punches, but didn’t know if his hands/arms were “waiving” around (TR. 1/24/17,
p352); and
although the video showed Sayed’s hands coming toward Captain Tidwell,
he was only trying to “block his punches to protect [himself] as a self-defense”
(TR. 1/24/17, p353).
After the presentation of evidence at trial, defense counsel never requested a
self-defense instruction and the court never provided the jury with an instruction

19

on self-defense. ,
C.

Law and Analysis

an offense beyond a reasonable doubt. In re Winship, 397 U.S. 358,364 (1970).
When instructed on self-defense, disproving the existence of self-defense becomes
an additional element of the offense that the prosecution must disprove beyond a
reasonable doubt. Castillo v. People, 421 P.3d 1141, 1148 (Colo. 2018).
A trial court must provide the jury with an instruction on self-defense when
the defendant presents “some credible evidence” on that issue. People v. Newell,
395 P.3d 1203, 1207 (Colo. App. 2017). A defendant satisfies his burden to
present “some credible evidence” on self-defense—thereby warranting an
instruction on self-defense—when he presents just a “scintilla of evidence,” which
means some evidence when viewed most favorably to the defendant that could
support a jury finding in his favor. Id.
Trial courts have a duty to correctly instruct juries on all matters of law.
People v. Garcia, 28 P.3d 340, 343 (Colo. 2001). In People v. Pickering, 276 P.3d
553 (Colo. App. 2011), the Colorado Supreme Court held that, if self-defense
applies as an affirmative defense, “the prosecution bears the burden of proving
beyond a reasonable doubt that the defendant did not act in self-defense, and the
trial court must instruct the jury accordingly.”

20

___

In Colorado, the issue of whether airial court must sua sponte provide the

.jtuy

an^ ^

——iflstruetion,but-theevidence-was-suffieienHo'warrant'a-self=defense~instnictioii;— has not been decided. In People v. Lankford, 524 P.2d 1382,1385 (Colo. 1974),
the Colorado Supreme Court held that the trial court did not have to provide the
juiy with a self-defense instruction—sua sponte—because the evidence in that case
did not warrant such an instruction. See also People v. Jacobson, 2017 WL
2981807 (Colo. App. 2017) (declining to determine whether trial court’s failure to
instruct the jury on an affirmative defense without a request from the defense to do
so constituted plain error because trial court did not err in failing to provide the
statutory affirmative defense instruction).
The following cases from other jurisdictions, however, have held that a trial
court has a duty to provide a jury with a self-defense instruction—sua sponte—
when the issue is raised by the evidence presented at trial: King v. Commonwealth,
220 S.W. 755 (KY. 1920); State v. Bidstrup, 140 S.W. 904 (MO. 1911); State v.
Ford, 130 S.W.2d 635 (MO. 1939); State v. Browers, 205 S.W.2d 721 (MO.
1947); State v. Bryant, 197 S.E. 530 (NC. 1938); State v. Greer, 12 S.E. 2d 238
(NC. 1940); State v. Goodson, 69 S.E.2d 242 (N.C. 1952); Collegenia v. State,
132 P. 375 (OK. 1913); Owens v. State, 225 P.2d 812 (OK. 1950); State v. Brice,
2 S.E.2d 391 (SC. 1939).

21

—

These courts have held that a court must—sua sponte—instruct a jury on
selF-aefense when the issue Is ralsedhy the evidence presented at trial because the

• - - triaTcourt-has-a-duty-tO'Correctly-instructihe juiy-on-aH-matters-oflaw: —
Here, Sayed testified at trial and repeatedly stated that Captain Tidwell
assaulted him which prompted him to try to block the punches and defend himself.
Without a doubt, such testimony constituted a scintilla of evidence that he acted in
self-defense; thus, the trial court had an obligation to instruct the jury on selfdefense. Newell, 395 P.3d at 1207.
Indeed, a trial court has a duty to correctly instruct juries on all matters of
law. Garcia, 28 P.3d at 343. To fulfill this duty, the trial court must instruct the
jury on self-defense when the issue is raised by the evidence presented at trial. The
evidence in this case unequivocally raised the issue of self-defense as an
affirmative defense, and, therefore, the trial court had a duty to instruct the jury on
self-defense to fulfill its duty to correctly instruct the jury on all matters of law.
Pickering, 276 P.3d at 556; Garcia, 28 P.3d at 343; Newell, 395 P.3d at 1207;
see also King, 220 S.W. 755; Bidstrup, 140 S.W. 904; Ford, 130 S.W.2d 635;
Browers, 205 S.W.2d 721; Bryant, 197 S.E. 530; Greer, 12 S.E. 2d 238;
Goodson, 69 S.E.2d 242; Collegenia, 132 P.375; Owens, 225 P.2d 812; Brice, 2
S.E.2d 391.
Because the trial failed to fulfill its duty to correctly instruct the jury on all

22

—matters of law when it failed to provide the jury with-a self-defense instruction* and
-Because there was a reasonable possibilityTHat th^lity would have acquitted

Court reverse his convictions. Miller, 113 P.3d at 751.
Indeed, the evidence against Sayed was not overwhelming—or even
particularly strong—as the jury acquitted him on count one and found him guilty of
a lesser-included offense for count three. Moreover, had the jury been instructed
on self-defense, the jury might have concluded that the officer was the aggressor
and that Sayed merely acted in self-defense, just as Sayed testified. Without a selfdefense instruction, the jury had no way of applying that concept to the evidence in
Sayed’s case. Lastly, by failing to instruct the jury on the affirmative defense of
self-defense, the trial court lowered the government’s burden of proof. E.g.
Pickering, 276 P.3d at 556. Thus, there was a reasonable possibility that the trial
court’s error contributed to Sayed’s convictions. Miller, 113 P.3d at 751. Sayed,
therefore, requests that this Court reverse his convictions.
III. The trial court violated Sayed’s due process rights, abused its
discretion, and reversibly erred when it failed to order a competency
evaluation for Sayed because substantial evidence was presented that
demonstrated that (1) Sayed may not have understood the nature and course
of the proceedings and (2) Sayed could not cooperate with defense counsel.
A.

Standard of Review

„. This issue was preserved.when counsel asked the court whether it believed _

23

that Sayed was incompetent to proceed (TR. 1/23/17, pp23-24). A trial court’s
competency deSemaihallons will Be upTield tfiseiit ^ ^uSe ofdlscrefioh,^People v.
' -

Stephenson, 16~5iP:3d~860r866~(Cotu:~Appr2t)07) (inteTnatcitations onrittetgi: ” "
If a trial court abused its discretion in making its competency determination,
appellate courts further employ the constitutional harmless error analysis. People v.
Matthews, 662 P.2d 1108, 1111 (Colo.App.1983); People v. Wingfield, 411 P.3d
869, 874 (Colo. App. 2014).
B.

Law and Analysis
Due process prohibits the trial of an incompetent defendant. Dusky v. U.S.,

362 U.S. 402, 403 (1960); Bloom v. People, 185 P.3d 797, 808 (Colo. 2008). A
defendant is incompetent if he or she is suffering from a mental disease or defect
which renders the defendant incapable of understanding the nature and course of the
proceedings against him or her or of participating or assisting in the defense or
cooperating with defense counsel. Wingfield, 411 P.3d at 874-75; Dusky, 362 U.S.
at 402 (holding that the test for competence is whether defendant “has sufficient
present ability to consult with his lawyer with a reasonable degree of rational
understanding—and whether he has a rational as well as factual understanding of the
proceedings against him.”). If a “sufficient doubt” of competency has been raised,
a trial court’s failure to make a competency determination violates a defendant’s
right to due process. People v. Kilgore, 992 P.2d 661, 663 (Colo. App. 1999).

24

-Similarly, a defendant’s right to due process is violated ifa trial court does not afford
an accused an adequate hearing concerning his or her competency . Wingfield, 411
P3(faF875.
The statutory procedures governing competency determinations are contained
in C.R.S. § 16-8.5-101 through C.R.S. § 16-8.5-118. C.R.S. § 16-8.5-102(2)(a)
provides that “if the judge has reason to believe that the defendant is incompetent to
proceed, it is the judge’s duty to suspend the proceeding and determine competency
or incompetency of the defendant pursuant to section 16-8.5-103.” C.R.S. § 16-8.5103, in turn, provides the procedures the court must follow once the court has reason
to believe that the defendant may be incompetent to proceed to trial. A court’s noncompliance with the competency statutory procedures, which provide the safeguards
necessary to insure against the prosecution of an incompetent defendant, constitutes
error so prejudicial as to be characterized as one of constitutional deprivation.
Matthews, 662 P.2d at 1111.
Here, sufficient doubt as to Sayed’s competency existed. Kilgore, 992 P.2d
at 663. Specifically, evidence existed that Sayed was suffering from a mental disease
or defect which rendered him incapable of (1) understanding the nature and course
of the proceedings against him and (2) participating or assisting in the defense or
cooperating with defense counsel. Wingfield, 411 P.3d at 874-75; Dusky, 362 U.S.
at 402 (holding that the test for competence is whether defendant “has sufficient

25

present ability to consult with his lawyer with a reasonable degree of rational
understanding—and whether he has a rational as well as factual understanding of the

competency examination, therefore, violated Sayed’s due process rights and
warrants reversal of his convictions.
1.

Understanding the Nature and Course of the Proceedings
On the first day of trial, January 23, 2017, defense counsel informed the

court that:
Mr. Sayed believed that additional investigation needed to be completed
(TR. 1/23/17, pp2-3);
Mr. Sayed believed “there to be witnesses who could testify that he was not
responsible for the assault that took place in this case.. ..[but] the entire assault in
this case is on videotape and that videotape is probably the key piece of
evidence....” (TR. 1/23/17, p9); and
Mr. Sayed believed “there to be tampering on the videotape itself... .Mr.
Sayed believes there to be obvious evidence of tampering. He believes his
previous counsel believes this, although previous counsel indicated to me that he
hasn’t looked into that particular issue to the extent that Mr. Sayed thinks that
maybe he did. I don’t think that he had looked into that really at all....” (TR.
1/23/17, plO).
26

Further, Mr. Sayed stated that (1) further investigation needed to be
compleT:ed—Interviewing 120DOC inmates about

2iey ^w^^e^dilenFSie
will

(TR. 1/23/17, pp!9-20).
The prosecutor also stated “[t]he defendant simply -1 don’t know if he’s
playing games or if he truly thinks he’s innocent and just looks at the world a bit
off kilter. But his request is not reasonable. The position is not reasonable. There
are no other witnesses that he alleges.” (TR. 1/23/17, pp3-6).
Due to Mr. Sayed’s conduct, defense counsel asked the court to look at Mr.
Sayed’s competency, noting that Mr. Sayed’s conduct made her “question
whether.. .we have any issues with competency to proceed based on some of the
more fantastic ideas that Mr. Sayed has about how this all unfolded.” (TR. 1/23/17,
p24). Thus, defense counsel stated “So I guess I’m asking if we could have a very
short discussion as to whether or not the Court believes that some of these more
fantastic claims, do they rise to [the level of possible incompetency].” (TR.
1/23/17, p24).
These remarks about Mr. Sayed’s fantastical beliefs raised sufficient doubt as
to whether Mr. Sayed had a sufficient grasp of reality to understand the nature and
course of the proceedings. Wingfield, 411 P.3d at 874-75; Dusky, 362 U.S. at 402;
Kilgore, 992 P.2d at 663. Put another way, the remarks by defense counsel, the

27

prosecution, undMr.Sayedgave the judge “reason to believe that [Mr. Sayed was]
incompetent to proceed”; thus* thejudge had alfifty tosuspend thepfoceedlngFand
determiire gofflpetencyT>T meoTnpetency oftheiiefe[dmrti?i3rsiiant'to sectit)inrl'6^S^------103. C.R.S. § 16-8.5-102.
The court failed to fulfill this duty. Instead of having Mr. Sayed submit to a
competency evaluation, the court stated that, “[e]ven though I refer to his theories as
somewhat fantastical or conspiratorial, nothing that Mr. Sayed has presented to me,
either in writing or in his presence today, suggested to me that I would raise
competency.” (TR. 1/23/17, pp24-25). Thus, the court, after having only met Mr.
Sayed one time—at the pretrial hearing—concluded that the statements
demonstrating Mr. Sayed’s possible incompetence were of no import and that there
was no need to have his competency assessed by an evaluator (TR. 1/23/17, pp2425).

Because the weight of the evidence presented during the first day of trial
demonstrated that sufficient doubt existed as to Mr. Sayed’s competency and ability
to understand the nature and course of the proceedings, and because the court
disregarded such evidence, the trial court’s competency determination was
manifestly arbitrary, unreasonable, and unfair. Stephenson, 165 P.3d at 866.
2.

Participating or Assisting in the Defense or Cooperating with Defense

Counsel

28

Throughout the proceedings in this case, Mr. Sayed demonstrated that he
could hoTcooperaS vwffdUehse counseirfflmgfielcfj TfXTl’Jui at ^4^75; ’ ~75usJcyt
3t>'2U:S. at402r~

- —— - ■ ———--------------—......................

First, Mr. Gervey represented Mr. Sayed (CF, p25). On September 18,
2016, Mr. Sayed filed a pro se “Motion to Dismiss Counsel of Record and
Appointment of the Office of Alternate Defense Counsel” wherein he alleged that
(1) counsel was ineffective (2) counsel was “not vigorously acting in his best
interest” and (3) a conflict with the public defender’s office existed (CF, pp4143). On October 1, 2015, at a dispositional hearing, the court addressed Mr.
Sayed’s pro se motion to dismiss the public defender’s office and appoint ADC
(TR. 10/1/15, pp434-41). Specifically, the court allowed Mr. Sayed to express
why he believed that the public defender’s office should be removed as court
appointed counsel and Mr. Sayed stated that there were motions he believed to be
meritorious that the public defender refused to file (TR. 10/1/15, pp434-41). The
court, however, found that the motions Mr. Sayed sought to pursue had no merit
and, therefore, concluded that no grounds existed for the appointment of ADC (TR.
10/1/15, pp434-41).
On October 15, 2015, Mr. Gervey filed a “Motion to Withdraw Because of a
Total Breakdown in Communication Between Counsel and Mr. Sayed” (CF, pp5657). In that motion, Mr. Gervey alleged that Mr. Sayed refused to visit with him

29

thusrendering representation “unrcasonablydifficulCfor him {CF, ,pp56-S7). On
Octdber K, 20137thdtrIaI courf gratited Mr. Gervey^s request to withdraw and

On December 2,2015, Mr. Bauer filed a “Motion to Withdraw” wherein he
asked the court to issue an order permitting him to withdraw because no conflict
existed between Mr. Sayed and the public defender’s office (CF, pp73-74). On
December 3,2015, the trial court issued its “Order Re: Motion to Withdraw”
wherein it denied Mr. Bauer’s motion to withdraw because “the public defender’s
office determines whether such conflicts exist, subject to court review,” not ADC
attorneys (CF, p75).
On December 9,2015, Mr. Sayed filed, pro se, “Defendant’s Objection to
Counsel’s Motion to Withdraw” wherein he alleged that a conflict of interest
existed between him and Mr. Bauer but objected to Mr. Bauer’s statement that no
conflict existed between him and the public defender’s office (CF, pp76-79).
Thus, Mr. Sayed requested that new ADC counsel be appointed (CF, p79).
On December 9,2015, Mr. Sayed also filed a pro se “Response to Counsel’s
Motion to Withdraw and Motion for Appointment of Alternate Conflict Free
Counsel” (CF, pp80-82). In that document, Mr. Sayed alleged that Mr. Bauer had
a conflict of interest which prevented him from adequately and completely

30

representing him (CF, p81). Thus, Mr. Sayed again requested that the court
appomTnew ABC CbiMeltCT,'p82JT "

Mr. Sayed waived his preliminary hearing and pleaded not guilty (TR. 4/6/16,
pp419-20). In response, Mr. Sayed stated that he did not knowingly, voluntarily,
and intelligently waive his right to a preliminary hearing because he felt that he
was coerced into doing so by the prosecutor’s failure to turn over certain items of
discovery (TR. 4/6/16, pp422-23). In response, Mr. Bauer stated that he was “in a
very precarious position as [Mr. Sayed’s] attorney” because Mr. Sayed waived his
right to a preliminary hearing, but then stated that he did not do so voluntarily (TR.
4/6/16, pp423-24). Thus, Mr. Bauer asked to set Mr. Sayed’s case for a
preliminary hearing and stated, “if Mr. Sayed’s not happy with that decision that
I’m making then I have difficulties with my continued representation.”
In response to Mr. Bauer’s requests and statements, the court stated:
I’m not going to allow the withdrawal of the not guilty plea because I
feel like we are being whipsawed by your client. He’s playing games.
He’s pretending to be an attorney and won’t let you do your job as an
attorney. His job is to help you in defense, but not be the attorney.
He thinks he’s an attorney. He’s not. Not even close. And I don’t
mean to say that to insult him, but he’s not an attorney... .And Mr.
Sayed is going to have to let you, Mr. Bauer, do your job as an
attorney and let you be in charge of the law. You’re the captain of the
ship. He makes three decisions....All the other decisions are left to
Mr. Bauer, who is perfectly capable of handling these things. Been
practicing for 20 years, for crying out loud. So I’m very confident
Mr. Bauer has a good handle on the law and what it requires. But I’m
31

^

not going to let ourselves be played Mr. Sayed any further.. ..I’lmnot
delaying this thing anymore for this Defendant who thinks he’s a
Tawyer ahdTie^s hot End of story and I don’t want to he^ ahyOimg ^ ^ '
more.

(TR.476/16, pp425-2f6)7
On June 1,2016, Mr. Sayed filed a pro se “Motion to Dismiss Assigned
Counsel and Request for Appointed New Counsel, Ineffective Assistance” (CF,
ppl78-80). In that motion, Mr. Sayed alleged that Mr. Bauer (1) failed to file the
motions Mr. Sayed wanted to file (2) provided ineffective assistance of counsel
and (3) had a conflict of interest (CF, ppl78-80).
On June 23,2016, Mr. Bauer filed a “Motion to Withdraw” wherein he
stated that (1) he denied Mr. Sayed’s ineffective assistance of counsel allegations
(2) the court had previously dismissed the public defender’s office due to a
breakdown in communication with Mr. Sayed and (3) Mr. Sayed’s actions in
court demonstrated that he “[did] not wish to either have counsel or listen to the
advice of counsel” (CF, pp175-76). Thus, Mr. Bauer requested to withdraw as
counsel for Mr. Sayed (CF, ppl 75-76).
On June 24,2016, the trial court issued an “Order to Withdraw” wherein the
court allowed Mr. Bauer to withdraw and stated that it would appoint substitute
ADC counsel (CF, pi 81). On August 1,2016, the court appointed ADC counsel
Stephanie Stout to represent Mr. Sayed (CF, p208). On August 4, 2016, Ms. Stout
entered her appearance as counsel for Mr. Sayed (CF, p209).
32

On the first day of trial, January 23, 2017, defense counsel—Ms* Stout—
SegaiftKe proceedings by stating?

~~ •

“ ““ ""~~ '

~Tudge 1 was discussing with Mr. Sayedlfiis morning issues arid Mr.
Sayed has asked me to bring to the Court’s attention on his behalf that
while I believe that I am ready to proceed to trial he does not believe
that he is prepared to proceed today. He believes that there is
investigation that is remaining. He believes that there are potential
witnesses who he believes are necessary. I have prepared the case and
made certain strategic decisions, as are my responsibilities pursuant to
the statute and the Rules of Professional Conduct, and believe [sic]
that I have complied with what I need to comply with. However, Mr.
Sayed is not comfortable proceeding today and he is requesting that
this Court continue the trial. He is not comfortable with the way that I
have prepared the case at this point... .1 think the record is sufficient
that I have prepared the case making strategic decisions based upon
my experience and expertise and the way that I believe that the case
needs to proceed. But my life is not the one that is impacted and Mr.
Sayed’s life is. And he is not satisfied with proceeding today in the
manner that I have determined is how I would proceed.
(TR. 1/23/17, pp2-3).
In response, the prosecutor stated:
Your Honor, the People object to any further continuance of this
case.. ..This case has been delayed mostly because - well, not mostly,
almost entirely because of the defendants actions....
The defendant has filed no complaints about Ms. Stout or
anything to that degree. But at this point even if he had he’s
complaining about how she’s preparing for trial.
The defendant has now had three attorneys, neither [sic] of
which he apparently finds satisfactory. I think that reflects more on
his inability to know what he’s talking about than oh the defense
attorney’s capability to prepare for trial.. .[H]e’s filed numerous
frivolous motions. Other motions to dismiss, a couple dozen pro se
motions, even though he’s been represented by an attorney the entire
time. All of those motions have been denied or dealt with by Judge

33

Singer leading up 4o trial;
The defendant simply -1 don’t know ifhe’s playing games or if
fie truly thinks he’s innocent and just looks at the world a bit off kilter.
But his request is not reasonable. The position is not reasonable.
There are"nd other witnesses thatTiealleges. .
(TR. 1/23/17, pp3-6).
The court then held a Bergerud hearing out of the presence of the
prosecution (TR. 1/23/17, pp7-25). During the Bergerud, hearing, Mr. Sayid stated
that he believed that (1) further investigation needed to be completed—
interviewing 120 DOC inmates about what they saw on the date of the alleged
incident— (2) the video footage of the assault had been tampered with and (3)
counsel had failed to visit and communicate with him (TR. 1/23/17, ppl9-20).
This evidence demonstrated that there was sufficient doubt as to whether Mr.
Sayed could cooperate with defense counsel. Wingfield, 411 P.3d at 874-75; Dusky,
362 U.S. at 402; Kilgore, 992 P.2d at 663. Put another way, Mr. Sayed’s continuous
inability to (1) work with defense counsel (2) communicate with defense counsel
(3) allow defense counsel to prepare the case based on their skill and experience
demonstrated that there was “reason to believe that [Mr. Sayed was] incompetent to
proceed”; thus, the judge had a duty to suspend the proceedings and determine
competency or incompetency of the defendant pursuant to section 16-8.5-103.
C.R.S. § 16-8.5-102; Wingfield, 411 P.3d at 874-75; Dusky, 362 U.S. at 402;
Kilgore, 992 P.2d at 663.

34

The court failed to fulfill this duly. Instead of ordering Mr. Sayed to submit
f.. T.

to a competency evaluation, the court stated that, based upon reviewing the court file
and meeting Mr; "Sayed one time, it did not have concern about Mr. Sayed’s
competency (TR. 1/23/17, pp24-25). Thus, the court, after having only met Mr.
Sayed one time—at the pretrial hearing—concluded that Mr. Sayed’s continuous
inability to cooperate with defense counsel was of no import and that there was no
need to have his competency assessed by an evaluator.
Because the weight of the demonstrated that sufficient doubt existed as to Mr.
Sayed’s competency and ability cooperate with defense counsel, and because the
court disregarded such evidence, the trial court’s competency determination was
manifestly arbitrary, unreasonable, and unfair. Stephenson, 165 P.3d at 866.
3.

Conclusion
Because the trial court abused its discretion by making a competency

determination that was manifestly arbitrary, unreasonable, and unfair, reversal of
Mr. Sayed’s convictions is warranted. Stephenson, 165 P.3d at 866; Matthews, 662
P.2d at 1111; Wingfield, 411 P.3d at 874; Blecha, 962 P.2d at 942. Indeed, because
there was substantial evidence that demonstrated Mr. Sayed’s potential
incompetence, the trial court’s failure to afford Mr. Sayed a competency evaluation
violated his due process rights. Dusky, 362 U.S. at 403; Bloom, 185 P.3d at 808;
Matthews, 662 P.2d at 1111.

35

, Moreover, because the proceedings were notdelayed to eonductaeompetency
waspermr

estiiy-inhisae;

, during -wniGh he rela­

tor conspiratori
Blecha, 962 P.2d at 942 (“If there is a reasonable probability that [the defendant]
could have been prejudiced by the error, the error cannot be harmless.”). Also,
because the proceedings were not delayed to conduct a competency hearing, counsel
had to proceed to trial without Mr. Sayed’s competent assistance5, which likely
substantially prejudiced the defense. Id.
CONCLUSION
For the reasons and authorities presented in arguments I. and II. above,
Sayed requests that this Court grant his petition for writ of certiorari.

5 E.g. on January 23,2017, defense counsel stated that Mr. Sayed would not agree
to certain defenses she thought to be potentially meritorious (TR. 1/23/17, pi4)
36

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
------ - ja. Q

Date:

JuV^| 1; ^0.

